Nos. 19-251, 19-255
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
V.

XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
v.

XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced BRIEF OF AMICUS
CURIAE THE LEGACY FOUNDATION IN SUPPORT OF PETITIONERS, as indicated
by the word count feature of MS Word, and including footnotes but excluding those
parts enumerated for exclusion under the rules, contains 7,994 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 1st day of March, 2021.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 1st day of March, 2021, and attested that
the foregoing certificate is true and exact to the best of his knowledge and belief.

